      !el
                       se                                       NATIONAL SCIENCE FOUNDATION
                                                                 OFFICE OF INSPECTOR GENERAL
      z                                                            OFFICE OF INVESTIGATIONS

                                                          CLOSEOUT MEMORANDUM
       4
           04'ND


      Case Number: 1-05-11-0069
                                                                                              I     Page 1 of 1



                 This investigation was opened pursuant to a complaint that the Executive ~irector'of a research
                 firm2 made false statements in an NSF proposal.3

                 Our investigation showed that NSF h d e d 4 the proposal, based in material part on the false
                 statements. In addition, the firm submitted an altered letter of support to demonstrate a
                 collaboration that it did not have.

                 Based on our recommendations, NSF suspended the award during the course of the investigation
                 and subsequently terminated the award5, and also imposed a federal government-wide
                 debarment6on the Executive Director for a period of five years.

                 Accordingly, this case is closed.




                 1
                     Dr. John Zuman
                 2
                     Intercultural Center for Research in Education (INCRE)
                     ESI-0452301
                     $2,070,230.
                     See Tab #I-Grant Letter dated March 3,2008
             '




                     See Tab #2-Notice of Debarment dated February 29,2008



11'
  NSF OIG Form 2 (1 1/02)
                         NATIONAL SCIENCE FOUNDATION
                                  Grant Letter     .
Award:0452301                                                PI Name:Zuman. John




       -
Award Date:                                                   March 3, 2008
Award No.                                                     DRL-0452301
Amendment No.                                                 003

7
Intercultural Center for Research
                        -


in Education, Inc.
3.66 Massachusett Avenue
Arlington, MA 02474-6733
Dear
By letter dated March 23, 2005, , as amended, the sum of $1,471,188 was
awarded to Intercultural Center for Research in Education, Inc. for support of
the project entitlednCommunity-based Multicultural After-school Science
Discovery Program Targeted for Urban Youth-der    the direction of John P.
Zuman.

This award is hereby terminated in accordance with the letter dated February
29, 2008 from Dr. Kathie L. Olsen, Deputy Director, National Science
Foundation.

The cognizant NSF program official for this grant is                  (703)
292-
The cognizant NSF grants officia1.i                    (703) 292-
Sincerely,


Grants and Agreements .Officer




Printed from eJacket: 03/03/08                                         Page Iof 2
                                                       .-

                                                            NATIONAL SCIENCE.FOUNDATION
                                                                 4201 Wilson Boulevard
                                                                                                          . .
                                                               ARLINGTON, VIRGINIA 22230


                                                                   FEB 2 9 2008


          OFFICE OF THE
'       GENERAL COUNSEL


      CERTIFIED MAIL --RETURN RECEIPT REQUESTED

      Normand F. Smith
      Burns & Levinson, LLJ?
      125 Summer.Street
      Boston, MA 02 110

             Re: Dr. John Zuman -Notice of Debarment
                 .   .

      Dear Mr. Smith:

      On December 12,2007, Dr. Kathie Olsen, the National Science Foundation's ('WSF") Deputy
      Director, issued to Dr. Zuman a Notice of Proposed ~ e b a r m kint which NSF proposed to debar
                                                                                                                             '




      Dr. Zuman from directly or indirectly obtaining the benefits of Federal grants for a period of five
      years. The Notice sets forth in detail the circumstances giving rise to NSF's decision to propose
      his debarment. Specifically,NSF proposed Dr. Zuman's debanhent because he made multiple
      false statements andaltered a letter of support in connection with an NSF-funded proposal. In
      this Notice, NSF provided Dr. Z y r m with opportunity to respond to the proposed debarment.




                                                                                                                     -
      On January 10,2008, Dr. Zuman.filed a timely response to this Notice. In this response, he
      urged NSF not to debar him because he alleges that the investigation conducted by the Office of
      Inspector General ("OIG") into his misconduct was inaccurate. He also asserts that, if any
      misconduct did occur, no harm was caused to NSF or the project. As detailed below, I am not
      persuaded by either of Dr. Zuman's arguments.
                                                                             '




                         .   ..   .   .   .   .    .   .                                 . .. .   ...   . . . . ..
      I gave careful consideration to the points made by Dr. &an ih his response that the OIG .                      .



      investigative report contained num&ous inaccur&ies. Upon review, however, Dr;Zuman has
                                                                                 '




      offered-no evid&e to demonstrate that the probative infidmition cill'ected during the course of
                                                                           b- (eht
                                                          it is undisputed that                                                  '




                                                              from Dr. ZUmk's proposal in July 2004. It is                   .

                                             equested that Dr. Zuman remove all references to the
      in the reviied pnjposal that he subs . uentl submitted to NSF. Dr. Zuman asserts that he did not
' '   do so because, subsequent to the w d e c i s i ~ ton withdraw its support, one or both of the
      -4                              to consult on the project. Dr. Zuman, however, does not produce
      any substantive evidence to support his assertion: Moreover, he has not provided any rational
      explanation as to why either ofd o
                                       hu
                                        e-lt                                  agree to serve as a c6nsultant             .           ,



      on his proposal mere weeks after withdrawing support fiom the proposal.                      ..


      Dr. Zuman's contention t        h       a       t a revised letter of support for his proposal in
      July 2004 is similarly flawed. Not only was Dr. ~ u k m  unable to produce a copy of the letter,
                                                  Telephone (703) 292-8060       .   FAX (703) 292-9041
                                                                                                                                            Page 2
1   .       but he also has not proffered a plausible explanation as to why the-ould                                            support his
            proposal so soon after deciding to withdraw its support of it.

            Lastly, contrary to Dr. Zurnan's assertion, his misrepresentation of t h e p a r t i c i p a t i o n in :
            the project was a critical factor in NSFYsdecision to h d the proposal. The. cognizant program        .

            officers opined that the award would not have been made had the proposal not included a
            discussion of t     h       e      o    f which the-as               a crucial part. The summary of                                          .

            the OIG's interview with.the -program
                                                -   officers did   not appear in the OIG's investigative report,
            but was transmitted to Dr. Zuman with the Notice of proposed Debarment. I hav~enclosed1'
        .   another copy.with this letter.

            For all of the foregoing reasons, Dr. Zurnan is debarred until March 1,2013. Debarment
            precludes him fiom receiving Federal financial and non-financial assistance and benefits under
            non-procurement Federal programs and activities unless an agency head or authorized designee
            makes a determination to grant an exception. Non-procurement transactions include grants,
            cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan
            guarantees; subsidies, insurance, payments for specified use, and donation agreements.

            In addition, Dr. Zuman is prohibited h m receiving Federal contracts or ~p~roved.subcontracts
            under the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
            debarment. During the debarment period, he may not have supervisoryresponsibility, primary                                                       .

            management, .substantivecontrol over, or critical influence on, a grant, contract, or cooperative
                                                                                                                                                     '




            agreement.with any agency of the Executive Branch.of the Federal Government. .                                      ,



                                                                                              .           .
            under the government-wide debarment regulations, Dr. Zuman may ask the deba&ng official to                                               '       :,

            recbnsider the debarment decision or to,reduce the time periodor scope of the deb-ent.
            However, this request must be in writing, and must be supported by documentation. 2 CFR
            180.875.                                                      .               .


                                                  .           . .
            If you have anyquestions regarding the foregoing, please contact              Assistant General
            Co'unsel, National Science Foundation, office' o'f the General Counsel, 4201 Wilson ~ o u l e v h d ,
            Room 1265, Arlington, Virginia 22230.
                                                                                                                  . .
                                                                           Sincerely, -               .




                                                                           Kathie L. 01sen
                                                                       .   Deputy Director
                                                      .        .

            Enclosure
                                                          .        .                                                                .   .
            cc:     Dr. John z k a n
                    Ms. Karen Tiplady, DGA
                                                                                                  .           .
                                                                                                                        .   .
                                                                                                                                            .   .
                                  NATIONALSCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD      '   .

                                      ARLINGTON, VIRGINIA 22230



                                           DEC 1 2 2007
     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REOUESTED

Normand F. Smith, Esq.
Bums & Levinson, LLP
125 Summer Street
Boston, MA 021 10


       Re: Dr. John Zuman      - Notice of Proposed Debarment

Dear Mr. Smith:

In 2004, the Intercultural Center for Research in Education submitted a proposal to the National
Science Foundation ("NSF" or the b'Foundation") entitled, "Community Based Multicultural
After-School Science Discovery Program Targeted for Urban Youth," for which your client, Dr.
John Zuman, was identified as the Principal hvestigator. This proposal was funded. As
documented in the attached investigative report prepared by NSF7sOffice of Inspector General
("OIG), Dr. Zuman made multiple false statements and altered a letter of support in connection
with this proposal.

In light of his misconduct, this letter serves as formal notice that the National Science Foundation
("NSF") is proposing to debar Dr. Zuman from directly or indirectly obtaining the benefits of
Federal grants for a period of five years. During his period of debarment, Dr. Zuman will be
precluded fiom receiving Federal financial and non-financial assistance and benefits under non-
procurement Federal programs and activities. In addition, he will be prohibited from receiving
any Federal contracts or approved subcontracts under the Federal Acquisition Regulations
("FAR). Lastly, during his debarment period, Dr. Zuman will be barred from having
supervisory responsibility, primary management, substantive control over, or critical influence
on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
Federal Government.
                                                                                                Page 2
    Regulatory Basis for Debarment
\



    Pursuant to 2 CFR 180.800, debarment may be imposed for:

           (b)     Violation of the terms of a public a>greementor transaction so serous as to a&ct
                   the integrity of an agency program, such as -

                   (I)    A willfbl failure to perfom in accordance with the terms of one or more
                          public agreements or transactions; or


                   (3)    A willful violation of a statutory or regulatory provision or requirement
                          applicable to a public agreement or transaction



           (d)     Any other cause of so serious or compelling a nature that it affects your present
                   responsibility.

    In any debarment action, the government must establish the cause for debarment by a
    preponderance of the evidence. 2 CFR 180.850. In this case, Dr. Zuman made multiple false
    statements and representations in connection with a grant proposal submitted to the Foundation.
    Thus, h s action supports a cause for debarment under 2 CFR 180.800(b) and 2 CFR 180.800(d).


    Length of Debarment

    Debarment must be for a period commensurate with the seriousness of the causes upon which an
    individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
    exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
    180.865. Having considered the seriousness of Dr. Zuman's actions, as well as the relevant
    aggravating and mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for a
    period of five years.


    Procedures Governing Proposed Debarment

    The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
    decision-making. Under these regulations, Dr. ~ u m a nhas 30 days after receipt of this notice to
    submit, in person or in writing, or through a representative, information and argument in
    opposition to this debarment. 2 CFR 180.820. Comments submitted within the 30-day period
    will receive full consideration and may lead to a revision of the proposed disposition. IfNSF
    does not receive a response to this notice within the 30-day period, this debarment will become
    final.
                                                                                         Page 3
    Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
'
    Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
    Virginia 22230. For Dr. Zuman's information, we are attaching a copy of the Foundation's
    regulations on non-procurement debarment and FAR Subpart 9.4.

    Should you have any questions about the foregoing, please contact         Assistant General
    Counsel, at (703) 292-



                                                       Sincerely,



                                                       Kathie L. Olsen
                                                       Deputy Director


    Enclosures:
    Investigative Report
    Nonprocurement Debarment Regulations
    FAR Regulations



    cc:    Dr. John Zuman
           Ms. Karen Tiplady, DGA
        National Science Foundation
        Office of Inspector General




                         Confidential
                     lnvestieation K e ~ o r t
                   Case Number 1-05110069
                                  13 August 2007


I   'Kis Collliderltid Im~es~igation
                                  Repo~tis d ~ pl-opeliy
                                               e         of tllr NSF OIG i ~ l dilny be dis~1ose.doutside
       NSF only by 01G under the Freedom of I ~ l f o ~ ~ n l ~:iod
                                                                 t i oP~-i~lacicy
                                                                      n       Acts, 5 U.SC $$ 552)552a.
                                                                                                            I
                                 Executive Summary


Allegation        Material false representations in NSF proposal and responses to NSF panel
                  inquiries.

Subject           Subject is the Executive Director of an education oriented research fm.

OIG
Investigation     NSF granted a $2,000,000 award to Subject based in material part on his
                  claim that an outside consultant organization supported the project. The
                  OIG investigation revealed that the consultant had withdrawn support
                  fkom the project in writing prior to the proposal being submitted. Despite
                  this withdrawal, Subject falsely represented to NSF in his proposal that he
                  still had the consultant's support, and altered the date on a previous letter
                  of support to bolster this assertion. In addition, in response to NSF panel
                  questions, Subject falsely elaborated on anticipated support fkom the
                  consultant.
                  NSF program managers confirm that Subject would not have received the
                  award but for the consultant's support. Because Subject made material
                  false statements to the government, we referred the matter to the United
                  States Department of Justice (DOJ).
DOJ
Assessment        The Assistant United States Attorney declined prosecution because of
                  Subject's financial inability to pay. The declination was made for reasons
                  unrelated to merit, and upon understanding that NSF has strong
                  administrative remedies available, such as termination and/or debarment.
OIG
Assessment        The Acts: Subject made multiple false statements and altered a letter of
                  support.
                  Intent: Subject knowingly misrepresented the consultant's support in order
                  to obtain the NSF award.
                  Materiality: The false statements were material.
                  Pattern: Subject made multiple false statements to NSF, representing a
                  pattern.
OIG
Recommendations   Based upon the facts described herein, OIG recommends:
                         Pursuant to 2 C.F.R.   5   180 et seq, that NSF debar Subject for five
                         years; and
                         Pursuant to the applicable Grant General Conditions (GC-1, 7/02)
                         and Grant Policy Manual (GPM, 7/02), that NSF terminate NSF
                         award number ESI 042301.
       OIG INVESTIGATION


       A.       Factual Background:


       OIG received a complaint that subject,' Executive Director of an education oriented
research firm (hereafter "the Firm") made false statements in an NSF ~ r o ~ o s a l NSF  .~
subsequently awarded the proposed grant to the Firm, with Subject serving as Principal
Investigator (PI). The facts and circumstances surrounding this complaint are as follows:

         On November 17, 2003, Subject submitted a proposal3 to NSF with the support of a
consultant organization ( ~ 0 ) The~ . CO had two co-directors5 at that time. The purpose of the
award was to create an after-school program in science and literacy, which would be tested in
limited sites, and then widely disseminated throughout the United States. Subject was assisted in
drafting the proposal by Witness 36, who was also listed as a salaried employee, expected to
serve as Senior Scientist for the project. NSF did not h n d this proposal.

       On June 28 and 30, 2004, during a telephone conversation and in two written emails to
Co-Director 1,7 Subject requested continuing support and assistance from CO for a revised
proposal he intended to submit to NSF. Specifically, in the latest email, he informed Co-Director
1 that NSF ISE did not want to support literacy development, so that "the project should be
squarely on science learning." In addition, he asked Co-Director 1 to comment on how h s
proposal would contribute to theory and practice in the field, and wrote:

                 We . . . need to define the impact of the project for the years
                following the 4-year funding period. Here, some thoughts on the role
                of the Cross-Cities network in the continued dissemination of the
                developed program would be most helpful.

       Subject did not request a revised letter of support from CO at this point, stated his intent
to complete the revised proposal by July 15, 2004, and concluded: "in the mean time look
forward to your response to the two points I mentioned above."




   1 Dr. John Zuman, Executive Director, Intercultural Center for Research in Education (hereafter
Subject)
   2 ESI-0452301, Community Based Multicultural After-School Science Discovery Program
Targeted for Urban Youth
   3 Appendix (App.) 1, NSF Proposal 0407067, "Community Based Multicultural After-School


                                                   (hereafter Consultant Organization (CO))
                                                                (hereafter Co-Director 2)
                         (hereafter Witness 3)
   7 App.   2 (Emails dated June 28 and 30, 2004, between Co-Director 1and Subject).
       On July 6,2004, Co-Director 1 replied in an email,8marked "Urgent," withdrawing CO's
support fiom the project, and directing Subject to remove all reference to CO in his proposal.
Co-Director 1 wrote, in pertinent part:

               I received the preliminary changes for the next NSF submission. After
               discussing this opportunity with [Co-Director 21, we both agreed that
               we will have to decline further involvement in a joint project. . . ..we
               need you to remove all references to [CO] in your resubmission.

        On July 9,2004, Subject acknowledged receipt of this withdrawal of support in a written
email, stating that he was "disappointed that [CO] does not wish to be included in our grant," but
asking that Co-Director 1 at least serve on the advisory board for the project. In addition,
Subject asked if Co-Director 1 would be "willing to write a brief letter stating a willingness to
serve on the project advisory b ~ a r d . " ~

        On July 16, 2004, Co-Director 1 declined Subject's invitation to sit on the advisory
board, noting that it was a conflict since [CO] would be submitting proposals in partnership with
others to NSF." Co-Director 1 did not attach either a letter of support from CO or a letter of
intent to serve on the advisory board. That same date, Subject acknowledged Co-Director 1's
declination, noting his disappointment and disagreement that any conflict might exist."

        On August 13,2004, Subject submitted a subsequent proposal12requesting $2,070,230 of
fimding over 5 years. Despite CO's explicit withdrawal of support, Subject asserted in the
proposal that CO supported the project and would serve as a contributing paid consultant in years
3, 4, and 5 of the award. CO's role would be primarily to implement a dissemination plan. In
addition, Subject submitted a letter of support from CO, dated July 1, 2004, to reflect current
support for the project. Other than the date, this letter of support was identical to the previous
letter of support provided by CO for the earlier NSF proposal, using the title of the former
proposal that referred to literacy as well as science.13 Co-Directors 1 and 2 confirmed to OIG
that CO: 1) withdrew support for the project in question, prior to the date that Subject submitted
the proposal to NSF, and 2) did not provide Subject with a letter of support, dated July 1,2004.

          Moreover, Subject's proposal listed Witness 3 as a salaried Senior Scientist on the
project.14 Witness 3 has confirmed to OIG that s h e did not know about or authorize the use of
hisher name in the August 2004 proposal, and that s h e has not served as a salaried employee on
this project.

   8 App. 3 (July 6, 2004, email from Co-Director 1 to Subject, and July 9, 2004, response from
Subject to Co-Director 1).
   9App. 3 (July 9, 2004, email from Subject to Co-Director 1)
   10 App. 4 (July 16,2004, email exchanges between Co-Director 1and Subject)
    11   Id.
   12 App.  5 (NSF Proposal 0452301, "Community Based Multicultural After-School Science
Discovery Program). Per NSF's recommendation, Subject removed any reference to literacy from
the revised proposal, focusing solely on science.
    13 App. 6 (November 13,2003 and July 1,2004 CO Letters of Support).
    14 App. 7 (Cumulative Budget Proposal).
       The NSF review panel for the August 2004 proposal sent additional questions to Subject,
requesting in pertinent part, clarification of CO's anticipated role in the project. In response, on
November 10,2004, Subject provided the following additional false information:

               [Tlhe two [CO] co-directors will be instrumental in the dissemination
               of the project model beyond the initial group of after-school programs.
               As co-chairs of the ,                               they regularly meet
               with representatives of organizations that support and work with after-
               school programs all over the country. The [sic] will organize meetings
               and presentations for          members to share information about
               promoting science in after-school through the programs model, and
               will disseminate results of the project nationally. They will be
               reimbursed at a contract rate of $500 per day for their work on
               dissemination of project o~tcomes.'~

       OIG was informed about these allegedly false statements, and subsequently conducted
multiple interviews with Co-Director 1, Co-Director 2, and Witness 3, confirming the underlying
facts. In addition, OIG met with the program officials and confirmed that the NSF program
would not have made this award but for the representations regarding CO's participation in the
national dissemination aspect of this award.16

        In July 2006, to follow-up a site visit, the NSF Program 0fficer17 (PO), wrote to Subject
to ask the status of CO's participation. Specifically, the PO asked, "Howlwhen will work with
[CO] and           begin to prepare you for the national aspect of the program." Rather than
replying that neither CO nor        was involved in the project, Subject responded, in pertinent
part: "Advisory Board members encouraged us to work collaboratively with the Coalition for
Science and After School ([CO] is involved in this initiative) and we have already begun
working on this.'"'

        B.      Subiect's Response to Allegations:

      OIG investigators interviewed Subject in January 2007, and subpoenaed all relevant
documents.

      During this interview and in subsequent submissions to NSF O I G , ~Subject acknowledged
receipt of CO's email withdrawing support, and of the subsequent chain of emails in which Co-
Director 1 also declines his request to serve on the advisory board for the project or provide him
with a related letter of support.



    15 App. 8 (Panel Questions and the Subject's Responses).
    16 The materiality of these false statements is further supported by NSF's Review Analysis for
the proposal, which contains several references to CO's role as integral to the success of this project.
    11                        (hereafter Program Officer (PO)
    18 App. 9 (Email Exchange between PO and the Subject).
    19 App. 10 (Subject's response to Subpoena Request).
      However, Subject claimed that: (1) Co-Director 2 dropped off the July 1, 2004, letter of
support to his office in early July 2004, on Co-Director 2's way to work, even though he had not
requested a revised letter of support at that point; and (2) At the end of July, subsequent to the
email exchange in which CO expressly withdrew support, he contacted Co-Director 2 by
telephone and "cajoled" Co-Director 2 into agreeing that CO would again support the project.
When asked if he followed up that alleged phone conversation with an email confirming CO's
renewed support, Subject stated that he did not do so, nor did he request an updated letter of
support, but that in hindsight he should have done both.

       Co-Director 2 vehemently denies that s h e provided the July 1, 2004, letter of support to
Subject or that s h e had any conversation with Subject in which Co-Director 2 had a change of
heart or renewed CO's pledge of support for the revised proposal to NSF at any point in time.
Moreover, Subject's version of events is called into doubt by the remainder of the known facts.
First, in June 2004, Subject notified Co-Director 1 in writing that NSF was no longer interested
in the literacy aspect of the program. Yet the July 1, 2004, purported revised letter of support
signed by Co-Director 1 refers back to the title of the previous NSF proposal that had been
declined by NSF, which specifically referred to literacy, and other than the date, the new letter
was identical to the earlier letter. The preponderance of the evidence supports that Subject
merely took the previous letter of support and changed the date, to reflect continued CO support
that he did not have.

      Second, according to Subject's later interview at the U.S. Attorney's office, he asserted that
Co-Director 2 explained to him during the purported late July 2004 phone conversation, that the
reason CO could not support this project was because          was to be losing funding and would

                                                                   rn
not likely exist when needed to serve this project. Subject then reported to us that he told Co-
Director 2 that this was not a problem because he didn't need           for his project; rather, he
only needed the Co-Directors' contacts with the overall community to help him disseminate his
work. Subject contends that based upon his representation to Co-Director 2, Co-Director 2
agreed that CO would continue to support the project.

      Again, Co-Director 2 vehemently denies that this late July 2004 conversation took place,
nor does Subject claim to have sent any correspondence i.e., emails documenting this alleged
conversation. Moreover, it is wholly unlikely given the overall facts and circumstances.
Specifically, this claim is contrary to Co-Director 1's stated reasons that CO was withdrawing
support, just weeks before. Second, it is refuted by Subject's own responses to panel questions
in October 2004, where he expressly represents to the NSF panel that            was expected to be
involved in the dissemination plan. If, in fact, Co-Director 2 told him in July 2004 that
would not be able to actively participate in the award, if funded, then according to Subject's own
version of events, he then misrepresented '      s anticipated participation in dissemination to the
NSF Panel in October 2004. Further, Subject stated that he did not contact CO for assistance
with drafting answers to the Panel's October 2004 questions, as he thought it was "no big deal."

      Finally, a separate but related issue is the question of support by Witness 3. Subject claims
that he sent Witness 3 the revised proposal to review, with Witness 3 listed as a salaried
employee, and that Witness 3 wrote back that it looked good, and wished him good luck with it.
Subject also claims that he contacted Witness 3 when it was funded, but that Witness 3 did not
respond, and he had to hire a replacement. Finally, Subject claims that Witness 3 confronted him
in the fall with a letter, but that he called Witness 3's attorney and never heard back.

      However, Witness 3 vehemently denies ever seeing the new proposal, or knowing that s h e
was listed as a salaried employee. Witness 3 asserts that when s h e spoke to Subject in October
2005, Subject denied that Witness 3 was listed on the current funded proposal at all. When
Witness 3 replied that s h e had sought and obtained a copy of the proposal under FOIA, Subject
responded that there must have been a mistake, and that he would get back to Witness 3. He
never did.

      Subject has claimed several times during this investigation that because of an email glitch,
some relevant documents may have been randomly deleted from his system, and therefore
unavailable. Regardless of whether this claim is credible, we have determined it to be irrelevant
since according to Subject's own assertions; he never produced or received any documentation to
confirm the purported conversation with Co-Director 2 the end of July 2004 or CO's purported
restatement of support for his August 2004 proposal. Moreover, Subject states that he never
asked for a revised letter of support from CO after that purported conversation.

     In sum, Subject's version of events is not only refited by three witnesses, but it is also
contrary to the documentary evidence.


        C.     Department of Justice Assessment:

      Based upon the above facts, OIG concluded that Subject made several material false
statements to NSF, to include doctoring a letter of support. We believed that Subject violated
both civil and criminal statutes2' and we therefore referred the matter to the United States
Attorney's Office for the District of Massachusetts (USAO-DMA), which accepted this matter
for in~esti~ation.~'


      The USAO-DMA accepted our referral and eventually contacted Subject notifying him of
its intent to file a civil complaint against him. Subject met with the Assistant United States
Attorney (AUSA) and representatives of OIG to discuss the matter. Although the AUSA agreed
to move forward on the merits, upon review of Subject's financial disclosure statements, the
AUSA determined that Subject was financially unable to pay any substantial judgment and that
therefore, it would be more efficient, cost-effective, and productive for the agency to proceed
administratively. Therefore, the AUSA "reluctantly concluded not to file suite at this time," as a
result of Subject's lack of ability to pay. The AUSA specifically noted that the declination is
made with the "understanding that there are strong administrative remedies available to NSF
including a termination of the award and the potential for debarment of Subject for up to five
years."22


   20
   21 Assistant U.S. Attorney  A,
      18 U.S.C. § 1001, and 31 U.S.C. 3729(a)(2).
                                                Chief, Civil Litigation.
   22 App. 11 (Declination Letter, dated J u n e 1, 2007).
           D.    NSF's Actions:

       Based upon the facts uncovered during the investigation, and in order to best protect NSF
funds, NSF OIG recommended that NSF suspend Subject's NSF award23 for 60 days, and
requested that this suspension be extended three times, initially based upon ongoing discussions
between Subject and the USAO-DMA, and ultimately to prepare this report of investigation once
the matter was declined in lieu of administrative action. NSF accepted NSF OIGYs
recommendations, and the award is currently under suspension through August 1 9 , 2 0 0 7 . ~ ~


11.        OIG ASSESSMENT

           A.    Debarment:

        NSF has the authority to debar an individual for "[v]iolation of the terms of a public
agreement or transaction so serious as to affect the integrity of an agency program . . . ."25 Such
a violation occurs when the individual commits a "willfid violation of a statutory or regulatory
provision or requirement applicable to a public agreement or transaction. . . .,926 Furthermore,
NSF has the authority to debar an individual for "[alny other cause of so serious or compelling a
nature that it affects [the subject of the debarment action's] present responsibility."27


                  1.        Subiect's Actions:

        Subject entered his electronic signature on the Certification Page of his proposal, dated
August 13,2004. In doing so, he certified that "statements made herein are true and complete to
the best of his knowledge; and "agreed to accept the obligation to comply with NSF award terms
and conditions if the award is made as a result of the application." Moreover, the Certification
Page clearly put him on notice that: ''willfU1 provision of false information in this application and
its supporting documents or in reports required under an ensuing award is a criminal offense
(U.S. Code, Title 18, Section 1001)." As discussed below, Subject provided the following
material false statements to NSF throughout the proposal and award period, and compromised
the integrity of the NSF award system, which necessarily requires and relies upon truthhl
submissions.
                       a.    Material False Statements in Proposal
           Subject falsely asserted numerous times within the proposal that CO and Witness 3
           supported his revised proposal to NSF, referring twelve times to CO's support and ten
           times to Witness 3's support. Both co-directors of CO and Witness 3 deny that they
           supported this proposal. As discussed in detail above, CO officials have documentary


      23 ESI-0452301, Community Based Multicultural After-School Science Discovery Program
      24 App. 12 (Memoranda from NSF OIG to NSF, and Memoranda from NSF to the subject).
      25 2 C.F.R. § 180.800 (b).
      26 2 C.F.R. § 180.800 (b)(3).
      27 2 C.F.R. 8 180.800 (d).
       evidence that CO withdrew its support fkom this proposal weeks before Subject submitted
       it to NSF, and Subject himself provided documentary evidence that he received and
       acknowledged CO's withdrawal of support. In addition, as discussed above, a
       preponderance of the evidence refutes Subject's claims that Co-Director 2 later retracted
       CO's withdrawal of support.
       Moreover, Witness 3 denies being informed that hisher name was being included in this
       proposal, denies having been asked to participate as a paid employee on this funded
       proposal, and states that when s h e confronted Subject about the fact that s h e was listed
       on this proposal, Subject's response was that it must have been a mistake.28 For reasons
       discussed above, preponderance of the evidence supports Witness 3's claims that hisher
       name was included in the proposal without hislher knowledge or consent.
                   b.    Falsification of Letter of Support
       Subject provided a July 1, 2004, letter of support from CO. CO officials examined the
       letter and informed NSF OIG that it was identical to CO's previous letter of support,
       dated November 13, 2003, and that they did not authorize Subject to change the date. In
       addition, Co-Director 2 denies that s h e dropped off this letter of support to the Firm
       offices in early July 2004, and the remaining facts as described above do not support the
       Subject's version of events. Therefore, a preponderance of the evidence supports the
       proposition that Subject altered CO's earlier letter of support by adding a current date to
       reflect current support that he did not have.
                   c.    Falsification in Responses to NSF Panel Questions
       Subject responded to panel questions regarding CO participation by elaborating on CO's
       and '     s role in dissemination. Again, CO withdrew support in early July 2004, and
       denies ever having authorized Subject to include the organization as a consultant in the
       August 2004 proposal.
       Subject admits that he did not contact CO to assist in responding to panel questions 4 and
       5, requesting more information about dissemination. This was inconsistent with his
       decision to have his evaluation consultant              heavily involved in answering the
       panel's questions regarding the evaluation plan. Moreover, according to Subject's own
       version of events, i.e., that Co-Director 2 told him at the end of July 2004 that CO could
       not participate because         would be losing funding and would not exist to assist with
       the project, he provided clearly misleading information to the panel by suggesting several
       times in response to the panel questions that               would be instrumental in the
       dissemination plan.29

    28 OIG notes that Witness 3 has recently received a PhD from Harvard University's School of




                                                                                             =
Divinity.
    29 App. 8 (Subject's Panel Responses). This reads, in pertinent part:
    "Dissemination beyond the 5-year project will be conducted in collaboration with with the
.                        ..      members will be able to introduce the developed materials and
approach to after-school programs and community agencies in their cities. . . "
    and
    "The two CO's co-directors will be instrumental in the dissemination of the project model beyond
                                                             1
the initial group of after-school programs. As co-chairs of the                          ,  they
regularly meet with representatives of organizations that support and work with after-school
       For these reasons, preponderance of the evidence supports that CO withdrew its support
       and that Subject's panel responses were false. However, whether one credits CO's
       version of events or Subject's in this instance, preponderance of the evidence suggests
       that Subject provided material false statements to the NSF Panel in response to its
       additional inquiries.
                    d.    Falsification in Response to NSF Program Officer
       As late as the summer of 2006, Subject mislead the NSF PO into believing that CO was
       still involved in the NSF award. Rather than informing the PO that CO has not been
       involved since this award was issued, Subject implied that he was working with CO
       through another organization, to work on his national dissemination plan.30 Again,
       preponderance of the evidence supports that Subject continued to attempt to deceive NSF
       program officers regarding CO's involvement in this award long after even he admits CO
       was not involved in the project.
                    e.    Subiect's Lack of Candor with the OIG
       During several interviews and phone conversations throughout the course of this
       investigation, Subject has never accepted responsibility for his misrepresentations to
       NSF. Rather, his version of events with respect to both CO officials and Witness 3 is not
       only implausible, but wholly unsubstantiated by the three witnesses and the
       documentation produced by both Subject and these individuals.

               2.        Subiect's Intent:

        As discussed at length above, the weight of the evidence strongly indicates, by at least a
preponderance of the evidence, that Subject knowingly and purposefully made material false
statements in his proposal and accompanying documents that CO and Witness 3 supported this
project, when in fact, he had explicit knowledge that they did not. The representations regarding
CO were material and resulted in him obtaining an award that NSF would not have made but for
the purported support. Moreover, a preponderance of the evidence also indicated that Subject
knowingly and purposefully sought to continue to deceive NSF into believing that CO supported
the award.


               3.        Burden of Proof:

        In debarment actions, the burden of proof lies with the acting agency (NSF) to
demonstrate by a preponderance of the evidence that cause for debarment exists.31 Here, the
preponderance of the evidence indicates Subject purposefully and willfully violated the terms of
a public agreement (the Award) by violating the requirements in the proposal that he provide
truthful information, and by certifying that material false representations made within the


programs all over the county. They will organize meetings and presentations for         members to
share information about promoting science. . .and will disseminate results of the project nationally."
   30 App. 9 (Email exchange with NSF Program Officer).
   31 2 C.F.R. 5 180.850, and 2 C.F.R. $180.855.
proposal were true and accurate, when he knew them to be false.32 These acts are sufficiently
compelling and serious that his present responsibility to manage Federal funds has been
compromised.33
                  4.        Relevant Factors

     The debarment regulation lists 19 factors that the debarring official may consider.34Listed
below are the factors pertinent to this case.
                       a.    Actual or Potential Harm or Impact 35
      NSF has a significant interest in ensuring the integrity of its proposal and award system. In
this matter, NSF Program Officers have confirmed that they would not have awarded this award
but for the material misrepresentations made by Subject in his proposal, in the invalid support
letter, and in responses to the NSF Panel inquiries. Further, it is presumed that the $2 million
dollars in funding would have been awarded to other researchers in the field whose proposals
contained truthfbl information. Therefore, Subject's actions had significant impact such that the
award funds at issue would have been awarded to another entity but for his material
misrepresentations.
                       b.    Frequency or Duration of ~ n c i d e n t s ~ ~
     Subject's behavior included multiple false statements, spanning from the proposal in
August 2004, through an email exchange in July 2006 with the NSF PO, and in multiple
discussions with NSF OIG and the U.S. Attorney's Office. Subject continuously attempted to
deceive NSF, NSF OIG and DOJ into believing he had CO's support and support from Witness
3, when in fact, he did not.
                       c.    Pattern of Wrongdoing37
     OIG has no evidence of any instances of wrongdoing committed by Subject unrelated to
the Award.
                       d.    Role in Wrongdoing;38
     Subject was solely responsible for all of the false statements identified above.
Furthermore, the Subject committed these acts with full knowledge of their impropriety.
                       e.    Acceptance of Responsibility39
         Subject has yet to accept responsibility for his actions associated with this matter.




    32 2 C.F.R. 3 180.800(b)(3).
    33 2 C.F.R. 5 180.800(d).
    34 2 C.F.R. 5 180.860.
    35 2 C.F.R. 5 180.860 (a).
    36 2 C.F.R. 5 180.860 (b).
    37 2 C.F.R. 5 180.860 (c).
    38 2 C.F.R. 5 180.860 (0.
    39 2 C.F.R. $180.860(g).
                   f. ~ e p a y m e n t ~ '
     Subject has not repaid NSF for the wrongfully acquired funds. It should be noted that
Subject has told OIG and the AUSA that the Firm has spent in excess of $150,000 on this award
during the period the award has been suspended. OIG informed Subject that any funds he spent
on the award during the suspended period was at his own risk and may not be reimbursable.
OIG also suggested that Subject contact the grants officer for this award if he had any questions
regarding expenditure of funds during the suspension period.

                  g. Cooperation of the subiect4'
    During the investigation, Subject met with OIG investigators and with the USAO-DMA.
However, he has yet to accept responsibility for his actions.
                     h.   Position Held bv ~ u b i e c t ~ ~
    At the time the wrongdoing was committed, Subject was the Principal Investigator on the
Award.
                     i.   Organizational ~ c t i o n ~ ~
        As discussed above, the Firm has not taken any action to return wrongfully acquired h d s .

                     j.   Other ~ a c t o r s ~ ~
     There is no evidence that Subject diverted any of the misappropriated h d s from this grant
towards his own personal use or the personal use of others.
The other considerations listed in the debarment regulation do not appear relevant to this matter.
     For the reasons set forth above, and based upon apreponderance of the evidence, NSF OIG
strongly urges NSF to debar Subject for a period of five years.


          B.     Termination of Award:


    Subject's award was subject to the Grant General Conditions (GC-1, dated 7/02) and the
Grant Policy Manual (GPM). Article 25(b) of the applicable GC-1, and Section 912.1 (a)(2) of
the applicable GPM provides that NSF may terminate an award for listed reasons, including
"other reasonable cause." Moreover, Article 25(c) of GC-1 provides that "NSF may immediately
suspend or terminate the award without notice when it believes such action is reasonable to
protect the interests of the Government."

      As 'discussed above, Subject received this award based upon material false representations
in his proposal and in response to NSF panel inquiries that CO supported this award, and would
be responsible for assisting with national dissemination. The NSF program officers have

   40 2   C.F.R. 5 180.860 Q.
   41 2 C.F.R. 5   180.860 (i).
   42 2 C.F.R. 5   180.860 (k).
   43 2 C.F.R. 5   180.860 0).
   44 2 C.F.R. 5   180.860 (s).
confirmed that Subject would not have obtained this award but for the support of CO. In order to
protect the integrity of the NSF award system, and protect NSF award funds provided under false
pretenses, it would be not only "reasonable," but imperative that NSF terminate this NSF award.


111.   OIG Recommendations

      Consistent with the need to protect the interests of the public and the NSF, we
recommend that NSF take the following actions as a final disposition of this case:

                      a      Pursuant to 2 C.F.R. 5 180 et seq, debar Subject for 5 years; and
                      a      Pursuant to the applicable Grant General Conditions (GC-1) and
                             Grant Policy Manual (GPM), terminate NSF award number ESI
                             0452301.


IV.    Subiect's Response to Draft Report of Investigation


        On July 3, 2007, Subject was provided with a draft of this Report of Investigation (ROI)
and given the opportunity to provide comments or rebuttal. Subject provided a written reply to
the draft ROI on July 27, 2007 (attached at Appendix 13). We have read and hlly considered
Subject's arguments. However, we conclude that Subject's responses do not shift the weight of
the evidence in his favor, nor do they persuade us to make alternative recommendations to NSF.
